                                       CLOSEOUT FOR M97110040



 On 3 November 1997, a program officer' informed OIG that he had received an allegation of
 violation of confidential peer review and intellectual theft from a scientist2 he spoke with
 during a site visit. The scientist said while he was attending a recent professional meeting3
 he had been told by some colleagues that two researchers4(subjects 1 and 2) who collaborate
 together had begun a project on the idea described in his NSF proposalsS and that one of
 subject 1's graduate students6had abruptly changed research projects to one that the scientist
 suspected was based on his idea. He thought that these researchers' interests were different
 from his own and that they had become interested in this area after receiving his NSF
 proposals for peer review. He believed the ideas had been taken from his proposals, but he
 had been unable to check the meeting abstracts to see if their work was related to his idea.

 Consistent with NSF policy to keep the identity of reviewers confidential, OIG neither
 affirms nor denies that either subject, or their collaborators, were involved in the review of
 the scientist's proposal. OIG provided the scientist with copies of abstracts from the meeting
 that had been published by the two researchers7 and asked for his assessment of the similarity
 of their content to his proposal idea. The scientist said he had carefully reviewed the pattern
 of subject 1's research, and had concluded that the subject was "already working along a
 convergent path" to the scientist's work. He believed it was possible that the subject could
 have come up with the same ideas before, or at the same time, he had. He also said that he
 had reviewed subject 2's work. He concluded that subject 2's work that was related to his
 was derived from subject 2's collaboration with subject 1.




                                                                                                             -
 OIG concluded that there was no substance to the allegation of violation of confidential peer
 review. This inquiry is closed and no further action will be taken in this case.

 cc: Staff Scientist, Legal, AIG-Oversight, IG

 '  The program officer is D             r           . He is a program officer for sensory systems in the
  program of the Division                                                   in the Driecotraet-,b
    The scientist is Dr.                        h a faculty member in the Department 0                                   4at
-university                    b- lni
  ' The meeting was the m n n u a l meeting of the   p-
    The first researcher, su                                         a faculty member in the Department o-f
t                 the University                                    her, subject 2,-si                    a faculty member in
  the Department-a-university.
  'The scientist had submitted three proposals to NSF, only two of which are relevant to this case. These ar-
 -and               its revision,                  Proposal i                          ) - 4
                                                                                  s entitled
                                                                                                  . Proposal               is
  entitled                                                                                                              Both
  proposals were declined.
    The graduate student's identity is unknown.
  ' The abstracts are available on the internet at http://www-bstract.htrn.

                                                 page 1 of 1
